           OFFICE OF
    THE INSPECTOR GENERAL

SOCIAL SECURITY ADMINISTRATION


        SINGLE AUDIT OF THE
   COMMONWEALTH OF PUERTO RICO
     DEPARTMENT OF THE FAMILY
        FOR THE FISCAL YEAR
         ENDED JUNE 30, 2006

     August 2009   A-77-09-00011




 MANAGEMENT
ADVISORY REPORT
                                    Mission
By conducting independent and objective audits, evaluations and investigations,
we inspire public confidence in the integrity and security of SSA’s programs and
operations and protect them against fraud, waste and abuse. We provide timely,
useful and reliable information and advice to Administration officials, Congress
and the public.

                                   Authority
The Inspector General Act created independent audit and investigative units,
called the Office of Inspector General (OIG). The mission of the OIG, as spelled
out in the Act, is to:

   Conduct and supervise independent and objective audits and
    investigations relating to agency programs and operations.
   Promote economy, effectiveness, and efficiency within the agency.
   Prevent and detect fraud, waste, and abuse in agency programs and
    operations.
   Review and make recommendations regarding existing and proposed
    legislation and regulations relating to agency programs and operations.
   Keep the agency head and the Congress fully and currently informed of
    problems in agency programs and operations.

  To ensure objectivity, the IG Act empowers the IG with:

   Independence to determine what reviews to perform.
   Access to all information necessary for the reviews.
   Authority to publish findings and recommendations based on the reviews.

                                     Vision
We strive for continual improvement in SSA’s programs, operations and
management by proactively seeking new ways to prevent and deter fraud, waste
and abuse. We commit to integrity and excellence by supporting an environment
that provides a valuable public service while encouraging employee development
and retention and fostering diversity and innovation.
                                         SOCIAL SECURITY
MEMORANDUM

Date:   August 5, 2009                                                                       Refer To:

To:     Candace Skurnik
        Director
        Audit Management and Liaison Staff

From:   Inspector General

Subject: Management Advisory Report: Single Audit of the Commonwealth of Puerto Rico,
        Department of the Family, for the Fiscal Year Ended June 30, 2006 (A-77-09-00011)


        This report presents the Social Security Administration’s (SSA) portion of the single
        audit of the Commonwealth of Puerto Rico, Department of the Family (PRDF), for the
        Fiscal Year ended June 30, 2006. Our objective was to report internal control
        weaknesses, noncompliance issues, and unallowable costs identified in the single audit
        to SSA for resolution action.

        The audit firm Torres Llompart, Sanchez Ruiz L.L.P., performed the audit. We have not
        received the results of the desk review conducted by the U.S. Department of Agriculture
        (USDA). We will notify you when we receive the results if USDA determines the audit
        did not meet Federal requirements. In reporting the results of the single audit, we relied
        entirely on the internal control and compliance work performed by Torres Llompart,
        Sanchez Ruiz L.L.P., and the reviews performed by USDA. We conducted our review
        in accordance with the Quality Standards for Inspections issued by the President’s
        Council on Integrity and Efficiency. 1

        For single audit purposes, the Office of Management and Budget (OMB) assigns
        Federal programs a Catalog of Federal Domestic Assistance (CFDA) number. SSA’s
        Disability Insurance (DI) and Supplemental Security Income (SSI) programs are
        identified by CFDA number 96. SSA is responsible for resolving single audit findings
        reported under this CFDA number.

        The Puerto Rico Disability Determination Services (DDS) performs disability
        determinations under SSA’s DI program in accordance with Federal regulations. The
        Puerto Rico DDS is reimbursed for 100 percent of allowable costs. The PRDF is the
        Puerto Rico DDS’ parent agency.


        1
          In January 2009, the President’s Council on Integrity and Efficiency was superseded by the Council of
        the Inspectors General on Integrity and Efficiency, Inspector General Reform Act of 2008, Pub. L. No.
        110-409 § 7, 5 U.S.C. App. 3 § 11.
Page 2 – Candace Skurnik

The single audit reported PRDF:

    1. Did not submit the single audit report to OMB’s Federal Audit Clearinghouse
       within 9 months after the fiscal year-end (Attachment A, Page 1). The corrective
       action plan indicated PRDF will establish reliable and effective processes to
       comply with the reporting requirements. 2
    2. Had deficient accounting policies, procedures, and financial reporting practices
       including a lack of a self-balancing set of accounts, and inappropriate and/or
       incomplete monthly and year-end closing procedures (Attachment A,
       Pages 2 through 4). The corrective action plan indicated that a customized
       application system was being developed that will provide accurate and complete
       financial and budgetary information.
    3. Had an inadequate filing system that did not permit the prompt retrieval of
       payment and other documents requested (Attachment A, Pages 5 and 6). The
       corrective action plan indicated a Document Control System was developed that
       includes a Central File Division to maintain the supporting documents of all fiscal
       transactions.
    4. Had multiple documents missing from its personnel files, and was not properly
       monitoring payroll transactions (Attachment A, Pages 7 through 10). The
       corrective action plan indicated that a taskforce was organized to review
       3,000 personnel files to verify full compliance with all State regulations.
    5. Did not have an effective property and equipment system (Attachment A, Pages
       11 through 13). The corrective action plan indicated that PRDF was developing
       a customized automated Property Management System.
    6. Charged expenditures to SSA for obligations that were incurred after the end of
       the period of availability, resulting in questioned costs totaling $559,157
       (Attachment A, Pages 14 through 17). The corrective action plan indicated that
       PRDF will implement a mechanized application of budget control and financial
       transaction's register for Federal and State funds that will facilitate fiscal
       compliance with Federal regulations.

We recommend SSA ensure PRDF:

    1. Established reliable and effective processes that will allow it to comply with the
       requirement that the single audit report be submitted to the Federal Audit
       Clearinghouse within nine months after the fiscal year-end.

    2. Developed adequate accounting policies, procedures and reporting practices.

2
  The corrective action plans contained within the Single Audit of the Commonwealth of Puerto Rico,
Department of the Family, for the Fiscal Year Ended June 30, 2006, were of very low print quality.
Therefore, the corrective action plans are not included in this report. By request, we will provide a copy of
the single audit report to SSA.
Page 3 – Candace Skurnik


   3. Established a filing system that allows the prompt retrieval of Puerto Rico DDS
      payment and other documents.

   4. Corrected the personnel file deficiencies for Puerto Rico DDS staff.

   5. Established adequate procedures to monitor payroll transactions.

   6. Developed an equipment and property inventory system for the Puerto Rico DDS
      that complies with SSA policy.

   7. Established a system to properly account for SSA funds provided to the Puerto
      Rico DDS.

We also recommend that SSA:

   8. Determine whether the obligations recorded after the period of availability
      resulted in unallowable charges and if so, request a refund of the unallowable
      costs.

   The single audit also disclosed the following findings that may impact the DDS’
   operations although they are not specifically identified to SSA. I am bringing these
   matters to your attention as they represent potentially serious service delivery and
   financial control problems for the Agency.

         PRDF’s recordkeeping system did not provide for the immediate identification
          of payment documents and the system lacked adequate internal controls
          (Attachment B, Pages 1 through 9).

         PRDF did not have adequate procedures and controls over its cash
          management program (Attachment B, Pages 10 through 14).

Please send copies of the final Audit Clearance Document to Ken Bennett. If you have
questions contact Ken Bennett at (816) 221-0315 extension 1558.



                                               S
                                               Patrick P. O’Carroll, Jr.

Attachments
Attachment A
 Page 1 of 17
Attachment A
 Page 2 of 17
Attachment A
 Page 3 of 17
Attachment A
 Page 4 of 17
Attachment A
 Page 5 of 17
Attachment A
 Page 6 of 17
Attachment A
 Page 7 of 17
Attachment A
 Page 8 of 17
Attachment A
 Page 9 of 17
Attachment A
Page 10 of 17
Attachment A
Page 11 of 17
Attachment A
Page 12 of 17
Attachment A
Page 13 of 17
Attachment A
Page 14 of 17
Attachment A
Page 15 of 17
Attachment A
Page 16 of 17
Attachment A
Page 17 of 17
Attachment B
 Page 1 of 14
Attachment B
 Page 2 of 14
Attachment B
 Page 3 of 14
Attachment B
 Page 4 of 14
Attachment B
 Page 5 of 14
Attachment B
 Page 6 of 14
Attachment B
 Page 7 of 14
Attachment B
 Page 8 of 14
Attachment B
 Page 9 of 14
Attachment B
Page 10 of 14
Attachment B
Page 11 of 14
Attachment B
Page 12 of 14
Attachment B
Page 13 of 14
Attachment B
Page 14 of 14
                         Overview of the Office of the Inspector General
The Office of the Inspector General (OIG) is comprised of an Office of Audit (OA), Office of Investigations
(OI), Office of the Counsel to the Inspector General (OCIG), Office of External Relations (OER), and Office of
Technology and Resource Management (OTRM). To ensure compliance with policies and procedures, internal
controls, and professional standards, the OIG also has a comprehensive Professional Responsibility and Quality
Assurance program.
                                                  Office of Audit
OA conducts financial and performance audits of the Social Security Administration’s (SSA) programs and
operations and makes recommendations to ensure program objectives are achieved effectively and efficiently.
Financial audits assess whether SSA’s financial statements fairly present SSA’s financial position, results of
operations, and cash flow. Performance audits review the economy, efficiency, and effectiveness of SSA’s
programs and operations. OA also conducts short-term management reviews and program evaluations on issues
of concern to SSA, Congress, and the general public.
                                              Office of Investigations
OI conducts investigations related to fraud, waste, abuse, and mismanagement in SSA programs and operations.
This includes wrongdoing by applicants, beneficiaries, contractors, third parties, or SSA employees performing
their official duties. This office serves as liaison to the Department of Justice on all matters relating to the
investigation of SSA programs and personnel. OI also conducts joint investigations with other Federal, State,
and local law enforcement agencies.
                            Office of the Counsel to the Inspector General
OCIG provides independent legal advice and counsel to the IG on various matters, including statutes,
regulations, legislation, and policy directives. OCIG also advises the IG on investigative procedures and
techniques, as well as on legal implications and conclusions to be drawn from audit and investigative material.
Also, OCIG administers the Civil Monetary Penalty program.
                                        Office of External Relations
OER manages OIG’s external and public affairs programs, and serves as the principal advisor on news releases
and in providing information to the various news reporting services. OER develops OIG’s media and public
information policies, directs OIG’s external and public affairs programs, and serves as the primary contact for
those seeking information about OIG. OER prepares OIG publications, speeches, and presentations to internal
and external organizations, and responds to Congressional correspondence.
                           Office of Technology and Resource Management
OTRM supports OIG by providing information management and systems security. OTRM also coordinates
OIG’s budget, procurement, telecommunications, facilities, and human resources. In addition, OTRM is the
focal point for OIG’s strategic planning function, and the development and monitoring of performance
measures. In addition, OTRM receives and assigns for action allegations of criminal and administrative
violations of Social Security laws, identifies fugitives receiving benefit payments from SSA, and provides
technological assistance to investigations.
